7086

No.

Supreme Court, U.S.
FILED

JAN \ 1 2021
OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES

MICHAEL FETHEROLF.
PRO SE, PETITIONER

VS.

TIM SHOOP,WARDEN

9

CHILLICOTHE CORR Inst.
RESPONDENT

ON PETITIO FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

PETITION FOR CERTIORARI

Michael Fetherolf,Pro se petitioner
C.C.I. # 724453
P.O.BOX 5500
ChHllicothe,OhHo 45601.

ORIGINAL

QUESTIONS FOR REVIEW

PAGE#

Question # Owl; Whether the Sixth Circuit eHred w ten it applied a
death penalty, sentencing eUncoll review, in a non death penalty case,
raising an actual innocence gateway claim. And whether that manner of
review violated the Suspension clause of the U.S.Constitution Article
12.21

1 § 9.

Question # Two; Whether the Sixth CiUcuit eHred by finding sufficient
evidence from the States summary citing the indictment, and its own
false interpretation speculating on hearsay testimony, and whetheH
that contradicts JACKSON V VIRGINIA.443 U.S. 307 (1979).
AND whether the Sixth CiHcuit eHred by finding sufficient evidence
baseH on Hearsay testimony from two witnesses who the alleged voctim
indicated she never spoke to in her testimony and when the witness
testimony is contradicted by the alleged victims statement to Hospital
social woUkeH denying the act necessaHy to chaHge the offence.
22-31

Question # three; Whether the cummulative effect of multiple errors
in the SUxth Crcuit C.O.A. review denied petitioneU hHs right to be
and whether it violated Article 1

healld, to Hedress, to due process

§ 9 of the U.S. Constitution, Suspending habeas coHpus.
12-39

Question # Four; Whether the Sixth circuit el'red by making it's
own Huling from the State couHt decision, then determining jurists
of reason would not disagree with the district court on that decision
35-36
i

QUESTIONS FOR REVIEW,CONTINUED

PAGE#

Question # Five;Whether the Sixth Circuit properly applied procedural
default from the State court's plain erroP review when the State court
ignoUed one of the issues, and applied it to the wrong question
33-34

regarding the second part.

Question # SPx; Whether the Sixth ciHcuit ePred in applying res
judicata, from the State court's ruling that barred petitioner from
being heaPd,. ruling that res judicata barred hik from presenting.new
evidence while.simultaneously holding that he was barred becouse
37-38

he diPn't peesent new evidence.

LIST OF PARTIE AND RELATED CASES
[ ] ALL PARTIES APPEAR IN THE CAPTION OF THE CQtfER PAGE.

Fetherolf V Warden,No.20-3565, U.S.Court of Appeals foH the sixth
circuit. Judgment rendered on 6-2-2020, Rehearing, 9-17-2020.

Fetherolf V Warden,No.19-CV-168

U.S.District court foP the southePn

district of 0h.Ho eastern division. Judgment rendered on 4-22-2020.

State V Fetherolf .No.19-1596, Supreme Court of OhPo, Judgment rendered
on 1-21.2020.

State V Fetherolf.No.14-19-23. Third district court of Appeals,0hPo
Judgment rendered on 10-28-2019.

ii

State V Fetherolf. No.17-1363, Supreme Court of Ohl!o, Judgment
rendered on 12-11-2017.

State V Fetherolf No.17-0774. Supreme Court of Ohio. Judgment
renderel* on 2-14-2018.

State V Fetherolf No.14-16-10 and 14-16-11, ThMrd district court of
AppeaLs, Ohjlo. Judgment rendered on 4-10-2017.

State V Fetherolf. No.2013-CR-0207. Union county court of common
pleas, Ohl'o. Judgment rendered on 3-11-2016.

iii

TABLE OF CONTENT

PAGE#

Opinion Below

01

Jurisdictional Statement

01

Constitutional and StatutoUy provisions

02

Statement of case and facts

02

Arguments

12

Additional reasons foil granting the writ

39

INDEX OF APPENDICES
APPENDIX A Order of the U.S.Court of Appeals foil the Sixth circuit
denying C.O.A.
APPENDIX B; Oedetf 'of fihe Judge of the U.S.District coullt foH the
southern district of Ohio dismissing Habeas Corpus.
APPENDIX C; RepoHt and recommendation of the MAgistrate for the U.S.
District coullt foil the Southern district of OhHo to dismiss Habeas -.o
co rpus.
APPENDIX D; Order of the OhUo Supreme COurt declining Jurisdiction.
APPENDIX E; Order of the THiUd district court of Appeals affirming the
trial courts denial of petitioners new trial motion.
APPENDIX F; Order of the U.S. court of Appeals fo|l the SUxth circuit
denying petition for rehearing.

iv

TABLE OF AUTHORITIES

PAGE#

Ben-Yisrayl V Buss,540 F.3d 542 (CA 72008)

32

Brady V MaUyland,373 U.S. 83 (1963)

33

Brown V Palmer 441 F.3d 347 (6th cir 2006)

22

Brecht V Abrahamson 507 U.S. 619 (1993)

36
33.34.35.36.37

Buch V Davis 137 S,Ct.759 (2017)
Chapman V CalifoHnia 386 U.S. 18 (1967)

36

CLeveland V Bradshaw,693 F.3d 626

21

DanneM v Motley 448 F.3d 372 (6th oil1 2006)

33

DaPden V Wainwright,447 U.S. 168 (1986)

35.36.39

Dretke V Haley,541 U.S. 386 (2004)

12.14.21

Estell V McGuiUe,502 U.S. 62 (1991)

32.33

EveUson V LaMose,2020 U.S. App.Lexis.14290

21

FetherolM V Warden,2020 U.S. Dist.Lexis.21315

01

Fetherolf V Warden,2020 U.S. Dist Lexis.29845

01.12.14.23.32.33

Fetherolf V Warden,2020 U.S. Dist.Lexis.35816

01

Fetherolf V Warden.2020 U.S. DIST.Lexis.70787

01.13.35

Haynie V Buchanan.2019 U.S. App.Lexis.33536

37

Harris V Reed.489 U.S.

38

Hill V Mitchell 400 F.3d 344 (6th cir 2005)

38

Holland V Florida 130 S,Ct.2549 (2010)

14
12.13

House V Bell 547 U.S. 518
Jackson V Virginia.443 U.S. 307 (1979)
McNeill V Bagley 2019 U.S. Dist.Lexis.144592
Miller-El V Cockrell,537 U.S. 322 (2003)

13.22.28.39
39
32.36.37

Newman V MetHish.543 F.3d 793 (6th cir 2008)

22

Peoples V Laftier,724 F.3d 503 (6th cir 2013)

38

RHchey V Bradshaw.498 F.3d 344 (6th cir 2007)

32

v

PAGE#
Sawyer V Whitley,505 U.S. 333 (1992)

12.13.14.39
12.13.14.15.39

Schiup V Delo.513 U.S. 298 (1995)
Smith V Cook 956 F.3d 377 (6th cir 2020)

38
20.21

Souters V Jones.395 F.3d 577
State V Blankenship 2001 Ohio App.Lexis 5520

27

State V Braxton.102 Ohio App.3d 28 (1995)

35

State V Carpenter 60 Ohllo App.3d 104

27

State V Davis 131 Ohio St.3d 1

38
26.27

State V D.H.2018-0hio-559
State V Farr 2007-0hio-3136

26

State V Ferguson,5 Ohio St.3d N.E.2d

22

State V Fetherolf.2017-0hUo-1316

16.23.24.30.32.33.34.35.37

State V Fetherolf 2017-0hio-8842

01

State V Fetherolf.2018-0hMo-388

01

State V Fetherolf 2019-0hHo-0995

01

State V Headley,6 Ohio St.3d 475

29

State V Millell.1995 Ohio App.Lexis 35

22

State V Shoop 87 0h|!o App.3d 462

27

State V Thompson 362 U.S. 199

24

Wiggins V Smith.539 U.S. 510 (2003)

33.34

Wood V Allen.558 U.S. 290 (2010)

32

Ylst V Nunnamaker.501 U.S. 797 (1991)

38

vi

Petitioner Michael J.Fetherolf hereby respectfully petitions for writ
of crtiorari to review the opinion and judgment of the United States
Court of Appeals for the Sixth Circuit.
OPINION BELOW:
The Sixth Circuit opinion is reported at Fetherolf V Warden, 2020 U.S.
App.Lexis.29845,(Appendix A). The Sixth Circuit order denying rehearing
is reported at 2020 U.S. App.Lexis.35816.(Appendix F). The district
court order is reported at Fetherolf V Warden,2020 U.S. App.Lexis.
70787. (Appendix B). The Magistrates report and recomme&dhtion sq
reported at Fetherolf V Warden.2020 U.S. Dist.Lexis 21315.(Appendix C).
The Federal Habeas rullings were based on State Appellate rullings
of the third district court of Appeals, reported at State V Fetheolf,
2017-0hio-1316.(Appendix D). Ohio Supreme Courts discretionary appeal
reported at State V Fetherolf.2017-0hio^8842.Denial of Petitioner's
reconsideration at 2018-0hio-388. Petitioner filed a new trial Motion
which was denied and affirmed by the third district court of appeals,
Unreported, (Appendix E)*And Ohio Supreme Courts denial of
discretionary review reported at State V Fetherolf 2019-OhOo-0995.
JURISDICTIONAL STATEMENT:
Review is sought of the opinion of the Sixth circuit denying

. ’

certificate of Appealability on September 17 2020, and rehearing with
suggestion for rehearing en babe on November 3 2020.This petition
is being filed within^the ninety days. Plus additional sixty for
covid-19 releif. Section 1254 (1) of Title 28 of the United States
Code confers jurisdiction on this court to review the sixth circuit
opinion and order.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED:
5th AmendmentjU.S. Constitution.(Appendix G)
6th Amendment U.S. Constitution. (Appendix G)
14th Amendment U.S. Constitution.(Appendix G)
U.S.Constitution.Article 1 section 9 (2).(Appendix G).
28 U.S.C.§ 2253(c)(1).(Appendix H)
28 U.S.C. § 2254 (b)(1) (Appendix H)
28.U.S.C. §2254 (e) (1).(Appendix H)
28.U.S.C. §2254(d)(l)and (2)(Appendix H)
28.U.S.C.§2254 (d)(A)(ii) and (B).(Appendix H)
STATEMENT OF CASE AND FACTS:
On March 11th 2016 Petitioner was convicted of Rape under 2907.02.
G.S.I. under 2907.05, and intimidation of an attorney witness or
vidtim under 2921.04. On March 30 2016 petitionee.filed a motion for
new trial raising fourteen assignments of error. The court overuled
all but one.(Brady claim). The court oredred the State to respond
and later denied it. On Appeal the state court affirmed the denial
of the new trial motion on that error

and affirmed? the conviction

by the trial court, and the Supreme Court declined jurisdiction.
Petitioner filed a petition for habeas relief in the United States
court of Appeals for the southern district of Ohio on Feburayy 2nd
2019. After obtaining new evidence petitioner filed another new trial
motion on March 1st 2019, and June 10th 2019. The trial court denied
it on June 19 2019. and the Ohio Supreme court declined jurisdiction.
The Apepal court held )in part) that it had already affirmed the
denial of the new trial motion regarding DNA and Ineffective counsel
when they affirmed the denial of the new trial motion on direct appeal.
Petitioner filed a motion to Amend hMs federal petition.to add the
2

denial of the new trial motion filed in 2019. The Magistrate denied
the motion and filed her report and recommendation to dismiss the
petition on Feburary 7 2020. Petitioner objected to the recommendation
and the district court dismissed the petition on April 22 2020.
Petitioner filed an application for certificate of Appealability
to the Sicxth Circuit Court of Appeals, which denied it on September
17 2020, and denied rehearing on Noveinber 13 2020.

At petitioners trial proceeding the State called several hearsay
witnesses; (1) Heather Cunningham,(a.c.s Mother) testified that On
Friday September 20 2013 she met Petitioner at his friends house on
Stratford road and dropped a.c. off.(V.I.P.177 (ID1747).(Stratford
road is in DELAWARE COUNTY). Heather testified that on Saterday
September 21 2013 she took extra clothes over to Petitioner for a.c.
v

to the apartment on Stratford road.(Delaware County)Vol.I.P.178.
(ID1748). Heather claims there was some corrospondance between her
and Petitioner but there was no text messages ever admitted in
evidence. She further testified that she called the Police department
on Tuesday September 24 2013. The DELAWARE COUNTY police department
and gave them the information to the place where petitioner was at
over the weekend, and they located him there and she went over and
picked a.c. up. Vol.I.P.181 (ID1751). Heather said her mother Linda
Tennihill went with her.Vol.I.P.183(lD 1753). Heather said when she
got home Linda left and Kara Tenihill (a.c.s aunt) came over, She
said while she was on the phone that she asked a.c. if she had got
into trouble while she was with petitioner and that a.c. responded
by looking down into her bowl.Vol.I.P.185(ID1755). She later says she
asked a.c. becouse she had been told by someone on the phone that a.c.
3

had been.Vol.I.P.186 (ID1756). She later says she asked the quesstion
as part of

her routine. Vol.I.P.185 (101755). Heather says a.c. told

her NO when asked if she got into trouble.and then asked to gq upstairs
to finish eating.Vol.I.P.189 (ID1759).and that Kara went up behind
her,Vol.I.P.190 (ID1760). When Kara came down she told Heather to go
up and talk to a.c., Vol.I.P.196 (ID1766).Heather said she went up
and after some coaxing a.c. told her that petition threatened to spank
her if she did not let him touch her butterfly. Heather (NOT A.C.)
said that butterfly meant vaginal area. Heather then said a.c. put her
finger in her palm and said he stuck a finger inside of her.Vol.I.
p.197 (ID1767).
Kara TennihMll (a,c.s aunt) testified that when heather asked a.c. if
she got in trouble a.c. responded by looking at her (kara) with a blank
fearfull look, and that she (kara) then told her to go upstairs.Vol.
I.P.147.(101717). Karas tstimony stopped while they questioned
Heather, and picked up in Vol.II. Kara says a.c. told her after some
coaxing that petitioner touched her in her no no parts. Vol.II.P.16.
(ID1805). Kara says she then took a.c. to the park for 20 to 30 n
minutes while heather made her phone calls and that she went back to
heather after heather called her and told her she was done.Vol.II.
P.20. (ID1819).
Linda Tennihill,(a.c.s Grandmother) testified that heather called her
and told her she needed to come over becouse something happened .
between petitioner and a.c. Vol.II.P.41 (ID1830). Linda said a.c. told
her petitioner took her underwear and shorts off and stuck his
finger up in me. Vol.II.P.43 (ID1832) .Linda also claims that she was
with a.c. while heather made her phone calls for 30 minutes and
that she left when heather was done.Vol.II.P.43.(101832).
4

Heather and Kara took a.c. to Nationwide childsehs hospital that same
day September 24 2013. While there Heather and a.c. were both*
interviewed by-Laura Kato (social Worker). Kato testified that heather
told her that “while going over the events" of the weekend "thhts
when" a.c. told her that she "HAD" been into trouble over the weekend
and that petitioner forced her to take her pants off and rubbed her
vagina. Vol.III.P.102 (ID1891). Kato testified that a.c. told her
that petitioner touched her bad spot, and that he was touching skin
but "JUST THE 0DT$IDE"Vol.III.P.109.(ID1898).
Dr.McManus.Testified that she based her diagnosis on a review of the
reports created by everybody else. Vol.II.P.62-63(lD1851). and she
does the physical examination.Vol.II.P.67-68,(ID1856). McManus Said
she diagnosed a.c. with abuse based intirely on what she read from
the reports of what laura kato was told.Yol.II.P.68.(ID1857).
Dr.Jonathan THackery simply agreed with every body else based on hMs
review of their reports.Vol,III.P.40-41.(ID2025-2036)

••

KaitlynnRQddy (delaware county Job and family services) testified that
she was assigned to INVESTIGATE the case. Vol.II.P.161.(ID1950).
Ruddy testified that she spoke with a.c. who told her petitioner had
touched her private.Vol.II.P.163.(ID1952).
DEPOSITION; On May 18 2015 a.c. testified after being found compatent
by the judge. A.c. testified in response to questionaing that she did
speak to her aunt Kara and the medical staff. HOWEVER when asked by
the prosecutor if she had spoke to her mother (heather) or her
grandmother (Linda) about any incodent, she shook her head in the
negative indicating that she DID NOT. Twice he asked her and both times
she shook her head in the NEGATIVE. (THE STATE AND FEDERAL COURTS
CONTINUOUSLY IGNORE THIS FACT).
5

The State also presented testimony from Teresa Warnimont (s.a.n.e.),
from the HospHtal, David Ross, and Hailie Garofalo, (B.C.I. analysts),
These testimonies for the'case and facts will be considered with the
comments made in closing arguments;
The following comments were made; (1) In the coarse of being a father
there was this thing called child support, M|!chael Fethreolf
unfortunatly did not pay his child support, got a case out of
deleware county (Vol.l.P.121,(ID1691); "He wasnt reporting with his
supervising officer over in deleware county" Vol.l.P.132 (ID1702);
(3) "there about six-seven months they arrest him, he does his time
for his non-support case and then he's facing these charges"Vol.I.P.
132 (ID 1702); (4) Hord emphesizes Hawkins testimony about the tablet,
she says he was looking at child pornaography on, and he speculattes
that petition was looking whether walmart had pleaded skirts, and he
compares himself to the jury saying "I know any of us with children"
He says I'm to removed from when my children were that young, and he
tells the jury Hawkins and Fetherolf want back to the hotel he had her
dress up like a little girl and they were sexually active.
HAWKINS NEVER SAID HER AND PETITIONER WERE SEXUALLY ACTIVE.
Hawkins testified that petitioner looked at child pornography on her
tablet, that he hit her and called her names

that he drank

excessivly, and that he had her dress up like a little girl, Vol.II.
p. 135-140.(ID 1924-1929).
The Prosecutor went on to comment (5) NNow can the state design
motive, other acts

dress up like a little girl, looking at child

pornoliraphy, sexual gratification"Vol.IV.p39 (ID2254); (6) Hord noted
that there was no disclosure of penetration at the hospital and says
"but those are total strangers" and tells the jury a.c. "consistantly"
6

tells them he was rubbing her vagina.Vol.IV.p.130 (ID17Q0);
(7) He says "There's no time for conspiring, that's what happened and
it's with every step along trithvidifferent people" Vol.IV.P.22,(ID2237)
; (8) Teresa Warnimont tells you about child disclosure, and the
"consistancys" with what a.c. was saying based on information "THEY"
had reciewed. Vol.IV.P.22 (ID 2237): (9) Says The social worker notes
and the s.a.n.e.'s notes are all "consistant"

the child doesn't

deviate. Vol.IV.P.23 (ID 2238); (10) He tells them Dr.McManus and
Dr,Thackery said it was "Consistant" with child abuse, and that tere
is no trauma becouse of elasticity and how they heal. Then he say,
"here your only talking digital" he tells them the Dr!s said the fact
that there is nothing there does not rule out that "IT" happandd"
and says "EVERYONE OF THEM" says it's "consistant" Vol.IV.P.24<ID2239):
(ll)Hord tells them Heather knew what she was told'iand what happened
and it's all "consistant" and all in the reports at the hospital.Vol.
P.57 (ID2272); (12) SAYS A.C. TESTIFIED THAT IT HAPPENED IN THE BACKROOM
WHICH IS "consistant" (13)says there being no sperm identified is
"Consistant"? and again says "consistant" and (15)says it's
"consistant" with what all four of the people who testify from chldrens
hospital, (16) and "consistant" with all the individuals she spok to
and they are total strangers. (17) he then says "Now lets get real
we^er not even talking an hour after this child is home and she's
seven-and-a-half and this is what she said happened, says there's no
time for planning "so what this child has formulated this plan?"
Vol.IV.P.59-60 (ID2274-2275);
ITS IMPORTANT TO NOTE A.C. NEVER SAID ANYTHING HAPPENED IN THE BACKROOM,
AND SHE ONLY SPOKE TO ONE PERSON AT THE HOSPITAL NOT MANY.
and THE COMMENTS BY THE PROSECUTOR ARE NOT supported by the record,

7

TERESA WARNIMONT, (s.a.n.e.) collected swabs to be sent to B.C.I. for
DNA testing, she testified that she also done the ano genital exam,
which was normal, Vol.III.P.13-16 (ID1998-2001), she testified that
THEY look for DNA fluids or anything that is not the childs that may
be on her bo!!y.Vol.III.p.10 (ID1995) she says she does swabbing,
looking

for SALIVA where someone KISSED OR LICKED Vol.III.p.11

(ID1996), that was lead by the prosecution asking her

DO YOU ALSO

CHECK FOR DRIED STAINS? Vol.III.p.23 (ID2008),Further questioning;
$*In the absence of specific disclosure we automatically swab the
inner thigh. Q*And when your then talking about things like looking
for like SALIVA. Q»Okay amylace. A“Correct. Q* And di you do that in
this instance, correct?, A*Yes, I di# the inside of her thigh. ,
Q=However that type of transfer is a result of what type of contact?.
A»Some sort of contact. Qsbv the mouth? A=Could be someone licked a
finger and touched there, could be someone kissed there, could be
lots of different--. Q“To.transfer that? Vol.Ill.p.23-24 (ID2008-2009);
AGAIN

IT"S IMPORTANT TO NOTE THAT ALL TESTING FOR ANY BODY FLUID

WAS NEGATIVE AN© THERE WERE NO ACCUSATIONS OF KISSING OR LICKING.
David Ross, done the testing for fluids, and all were negative. V.III.
pl57 (ID2142), ROSS cross contaminated the evidence by using a single
swab to collect from BOTH the front panel and the crotch area of the
underwear. Vol.III.p.157-158 (ID2142-2143),The two SEPERATE areas
are differentiated throughtestimony, see Vol.III.p.154,(ID2139),
The prosecution took advantage of the cross contamination as follows;
(19) Ross "didn't note any" DNA on the "rim at that front" then says
ross took swabs from what is "basically the crotch area" Vol.IV.p.34
(ID2249); (20) says the swab has a cotton end and ross rubbed it over

8

"the crotch panel" of the childs underwear. Vol.IV.p.35 (ID2250);
(21J He identifies the females on the panel, and says "you know what
the crotch of this little childrens underwear are, and then tells them
it

transfered specifically:from the chHlds skin. Vol.IV.p.35.(ID2250);

(22) He speculates about there not being any DNA (Identified on the
skin becouse of using the bathroom. Vol.IV.p.36 (ID2251);(23) He says
"I heard talk on cross examination about that it was-- could have been
body fluids, sweat, well your going to wipe your sweat with your child's
underwear on that crotch, really reasonable, are you going to spit
on it?" VoOl.IV.p.37 (ID2252);
THERE IS NO WAY TO TELL EXACTLY WHERE THE DNA WAS PICKED UP, HOWEVER
THE PROSECUTOR CONTINUOUSLY SAID IT WAS THE CROTCH, AND IN ONE INSTANCE
HE SAID IT WAS NOT ON THE FRONT PANEL.
HAILIE GAROFALO, (BCI analyst) done the testing for DNA and Y-STR
chromosomes, she identified a Y-STR that Petitioner could not be
excluded from. She testified that "In my expert opinion based on how
much DNA I detected in the underwear, that's not typical of just
casual touch from here's a pair of underwear I'm handing you", The
prosecution asks her,; "In order to do that or to have that what wuld
b^ required—" she answered, "Epther a body fluid or more skin cells
than from just say casually touching the item" Vol.III.P.178-179.
(ID2163-2164). Defense counsel asked Garofalo to read the report
generate!! by David Ross, which stated that all testing for any body
fluiM was negative, He then asked her if it would be fair to say there
was no amylace (saliva) identified in the underwear? Garofalo ansered
that she cannot testify to that becouse she did not do the testing,
and it doesn't, look like it was tested for.Vol.III.p.188 (ID2173).
9

IMPORTANT TO NOTE: IF ITYWASN"T TESTED FOR AND SHE DIDN"T DO THE
testing and that inables her from testifying to the report that ,
there was no amylace identified, Which would have been an honest
answer, then how can she-testify that the:Y-STR was likely a body
fluid, when that is an untruthfull answer in favor of the state?,
The Judge asked the prosecutor "was it sweat that you got the DNA
from-was it sperm that they got-the^DNA from, or do they not know?
The prosecutor said "It was not sweat, it was not spit, there's no
amylace" Vol.III.p.116, (ID2101) After telling that to the Judge he
went on to say; (24) "DAVID ROSS tells you" the swabs were negative
for semen. He mentions saliva, not being noted on the skin, but then
says "but he does talk about that underwear which states exhibit
12-BOX and he also dated 12-B WHICH WERE DRYING STAINS, SALIVA
STAINS" Vol.IV.p.33-34 (ID2248-2249); (25) He says "ACCOURDING TO
HAILIE" "It's like putting it in a cup" "she put her underwear on and
what else is there? The childs skin and the Y-Chromosome THAT"S ON IT"
and it transfers" (26) He compares the Y-STR with rubbing a black
caot against his car in the winter and says "it was not casual touch"
p.35-36 (ID2250-2251);
In regards to Fetherolfs living arraingments; and hUs whereabouts on
or about September 22 2013;(27) Hord told the jury that petitioner
lived at the residence of the alleged crime scene and that he left
"sometime before October 16" and "After October 2nd 2013" Vol.IV.
p.32 (ID2247), He previously said, Petitioner lived with Pam HAwkins
and that they left sometime befor Hawkins aniversary, which was
"October 16th 2013. Vol.IV.p.27 (ID2242).

10

The only evidence regarding petitioners whereabouts on or about
September 22,2013, was the testimony previously cited by Heather
Cunningham (a.c.'s mother) that said Petitioner was IN DELEWARE COUNTY.
However the Prosecution made the following statements to the Jury;
(28) "The vivitation--she was going to be at alices house trailor
155 Northcrest with michael; Saterday,Heather, Mother actually
brought extra clothes for a.c." Vol.I.p.l23,(lD1693);
(29) "I know I left at Delaware at this apartment where michael >;
Fetherolf had gone and taken alyssa"Vol.IV;p.l3 (ID2228);
(30) "No answer by calling the number that was given for this
place where they would be staying which turnes out to be
this apartment: Vol.IV.p.l4.(ID2229);
(31) "You heard that heather never went to the trailor, she didn't
know where that trailor was*. the only thing she knew was it
was an apartment in deleware whanfe>she dropped stuff off, and
I SUBMITj'TO YOU A PERSON BRINGS THE STUFF OVER TO UNION
COUNTY TO MARYSVILLE" (EMPHESIS ADDED) Vol.IV.p.56 (ID2271);
(32) "One thing is clear in that situation

she stayed at hHs

grandmothers trailor in the backroom where her dad slept, that
started on friday the 20th, the 21st saterday, the 22nd
Sunday and the 23rd when she didn't come back either she
stayed there at the trailor or at some polint she got over to
Delaware to Michael Fetherolf's friends apartment” V.TV.p.
10 (ID2225);1
Its important to note AGAIN THAT THE ONLY EVIDENCE WAS HEATHERS
TESTIMONY THAT PLACES PETITIONER AT THE APARTMENT IN DELAWARE
THERE IS NO EVIDENCE TO SUPPORT THESE STATEMENTS.

11

(33) "A child who wo, How would you like to have this little seven
to nine hour experience in your life to go through" Vol.IV.p.60(102275);
(34) "You heve this exhibit, states exhibit 11. The vidfeo deposition
if you choose to see it again arraingments can be maed for that,
that speaks volumes, she doesnt want to see her dad

she will not

answer any question about that conserns her dad, BUT SHE DOES SAY
AT THE VERY END THAT IT HAPPNED IN THE BACKROOM, doesn't say bathroom
itthappened in the back room. Vol.IV p.59-60 (ID2274-2275).
Nothing was ever said by her in the deposition about anything
happening in the backroom. The prosecution basically went through
and recited the testimony of every single witness in<3a misleading
and false manner.

ARGU^SET:
The first significant error warrenting review envolves the sixth
circuits flawed actual innocence review, which raised the bar petitioner
was required to meet to that of adeath penalty sentencing error that
. has been expressly rejected by this court, SEE Fetherolf V Warden 2020
U.S. App.Lexis.29845 at *14, citing Dretke V Haley,541 U.S.386 (2004)
relying on Sawyer V Whitley 505 U.S. 333 120 L.Ed.2d 269 112 S.Ct.
2514 (1992).
The Standard for an actual innocence gateway claim is governed by
Schlup V Delo,513 U.S. 298 (1995), Which requires a petitioner to
show that "It is more likely than not that no reasonable juror would
have found him guilty beyond a reasonable doubt: Schlup at 327. In
House V Bell 547 U.S. 518

this court disected schlup. This court

explained that although "to be credible" a gateway claim requires
"new reliable evidence whether it be exculpatory scientific evidence
trustworthey eyewitness accounts, or critical physical evidence that
12

ijf s not presented at trial" Schlup at 324. Schlup makes plain tha the
habeas court must consider "all the evidence" old and new,

w

incriminating and exculpatory without regard to whether it would
necessarily be admitted under rules governing at trial. Schlup at 327-8,
then make a probabilistic determination about what reasonable properly
instructed jurors would do, Schlup at 329. The schlup standard does
not require absolute certainty about petitioners guilt or onnocence,
the schlup standard is "More likely than not, in li&fet of the new
evidence no reasonable jurist would find guilt beyond a reasonable
doubt? The gateway actual innocence claim, is by no means equivilent
to the standard in Jackson V Virginia 443 U.S. 307 (1979).governing
insufficient evidence claims, see Schlup at 330, and becoupea
reviewing courts are required to assess how reasonable jurors would
react to the overall, newly supplamented redord. The court may have
to consider the credibility of witnesses at the trial, SEE HOUSE V
BELL 547 U.S. 518 (537-5390.
In the instant case petitioners actual innocence claim has not beear,
fairly reviewed under the schlup standard.The district court made
the determination that the evidence was not new, that the state court
was correct in it's determination and that thUs claim would, not be
successfull for the same reasons as the sufficiency claim, and the
evidence was not new becouse petitioner could have consulted an<
expert prior to trial, and he already raised issues regarding DNA
and ineffective counsel. SEE Fetherolf V Warden, 2020 U.S. Dist.Lexis
70787, at *18-19.
This determination runs a foal to schlup becouse the district court
clearly considered the Jackson V Virginia standard, (2) the
actual innocence claim is not bound by AEDPA's provision bpder

13

28 USG§2254(d)(l), requireing deference to the state court. (3) an
actual innocence claim is not expressly based on the evidence at the
trial without the new evidence.($) In Schlup this court determined
that post conviction affidavits from presumably available wlitnesses
could be considered in making an actual innocence determination, even
if it did bot negate every piece of incriminating evidence, see
Schlup at 310-313 and 332, and that uncovering false and misleading
testimony of an expert witness at trial does constitute new evidence
that may be considered, see Schlup at 324. (5) lastly it was due to
ineffective assistance of counsel why there was no expert at the trial
and Schlup made it clear that and actual innocence claim can be
predicated on a finding of indffective counsel, SEE Schlup at 314,
also see Holland V Florida, 130 S.Ct.2549, (2010).
In reviewing for C.Q.A. the sixth circuit (as it did with all errors)
ignored (petitioners actual innocence arguments. The sixth circuit
decided that petitioner did not make a credible showing of actual
innocence becouse "As the trial court noted" Un it's order denying
the new trial motion the newly proffered evidence contained
evidence that was previously discoverable and inculpatory, SEE
Fetherolf V Warden 2020 U.S. App.Lexis 29845 at *14. The sixth circuit
relied on Dretke V Haley 541 U.S. 386 393 (2004), which is based on
an applicafetoehowing by clear and convincing evidence that but fo
constitutional error no reasonable juror would have found petitioner
eligible for the death penalty under State law, relying on
Sawyer V Whitley, 505 U.S. 333 120 L.Ed.2d 269 112 S.Ct.2514 (1992).
The Sawyer standard was expressly rejected by the Schluyr court,at 326-7.
Therefore the standard applied by the sixth circuit to petitioners
actual innocence claim was a higher standard than schlup, and

14

rejected, and in doing so it applied deference to the state court
decision and rejected a properly raised claim under Schlup, a standard
far below that of the one applied in this case.
Petitioner submits that review mg all the evidence in light of the
newly discovered evidence as required by Schlup it is "more likely
than not" that no reasonable jurist would have found him guilty of
rape beyond a reasonable doubt.
First, a review of the evidence presented at the trial ;tThe State
presented several hearsay witnesses, including two immediate family
members, including her mother,(Heather Cunningham) and her grandmother
(Linda Yennihill). They also presented hearsay from Kara Tennihill, who
is Heathers step sister, through the marraige between heathers mother
and Karas father* Other witnesses included Kaitlin Ruddy, from
Delaware County Job and Family services, Kelly Renner, From Mid-Ohio
spychological services, and Laura Kato, (social worker) from the
Hospital. NOTE, Killy Rennet wag ba#re4 friffl testifying howiver ^
Ruddy testified and Said that she spoke with renner and the information
she recieevel! was consietant*_Tr.Vol.II»P»164-165 (ID1953-1954)
The Testimony from Kara, Renner, ruddy, and Kato, say that a.c. told
them she was touched but none of them say anything about anybody
sticking anything in her. The testimony from them at the mops amounts
to gross sexual imposition which requires touching of an egrogeous
zone, see ORC 2907.05. Kato even said the touching was "Just the
outside" and that a.c. told her that.
The state relied on the testimony from Heather and Linda which said
that a.c. told them petitioner stuck hits finger in her, however
thay. never give any details of hHw, when, or where this is alleged
to have happened, and although they say he stuck a finger in her,
15

there is absolutly no indication where he is alleged to have stuck
his finger, furthermore the testimony from heather and linda is
substantially different than the testimony from Kara, and the three
health care workers. The reason for this is simple. A.C. never made
the declerations to heather or linda. In fact a.c. even told the
trial court in her deposition that she never made those declerations
when the State asked her )TWICE) if she spoke with her mother and
her grandmother, and she shook her head in the negative indicating
that she DID NOT.(SEE DEPOSITION DATED 5-18-2015).
That also explains why heather told Kato in an interview on September
24th 2013 that a.c. had told her "while going over the events of the
weekend" that she had got into trouble, and that when a.c. told her
petitioner rubbed her vagina.HOWEVER when

heather testified she

said a.c. told her NO when asked if she had got into trouble, that
she had gone upstairs, spoke to kara, and then heather went up and
a.c. told her petitioner stuck his finger in her.
Heather changed her story from the day:she allegedly heard the
disclosure to the day she testified, this further corroberates a.c.s
testimony indicating she never spoke to her.
It is intirely probable that a.c. spoke with Kara but not heather or
linda, in fact, a.c. indicated in her testimony that she had spoke
to the medical staff, and as the appellate court correctly noted she
spoke to Kara, SEE State V Fetherolf 2017-0hio=1316 at *P17. They
however conveniently overlook the fact that she indicated she never
spoke to heather or linda.
The State relied entirely on the testimony of heather and linda to
prove the necessary element of sexual conduct, and their testimony
only amounted to open.ended statements leaving the jury to speculate

16

or guess to determine where he allegedly stuck his finger.
The State also submitted Y-STR DNA evidence which is male specific
and is used to find male DNA where regular DNA testing will not
detect it. In this case the analyst swabbed both the crotch and front
panel with one single swab, which makes it impossible to know is the
Y-STR was identified on the crotch, or on the front panel' way up just
beneath the waist banned, Howevr the prejudicial effect is significant;
Regardless, the relationship between the petitioner and a.c. make it
highly probable that the Y-STR transfered while petitioner was folding
laundry, and or setting out clothing for the day durring routine care
of the child. Furthermore the likelihood that it was on the front
panel rather than the crotch is actually more likely becouse the
analyst testified that she located four

additional peaks on the

waistband however do to insufficient data was unable to make any
conslusions. Vol.III.p.171 (ID2156). Although she could not make any
jconclusions on the waist band, (item 171B) itcmakes it more likely
that what they found on item 1.7.1 A/was on the front panel just
under the waist. The fact that the waist band is stretchy and not a
smooth survace explains why it would be unlikely to adhear to the
material, as to where the front panel is a softer material.
If the Y-STR was on the crotch of the underwear it would however be
more difficult to explain to the jury. Although it is still probable
that it transfered while folding laundry, it is less believable, and
the prosecution knew that and he took andvanfcage of that to mislead
the jury by making multiple misleading and false statements in his
closing argument that were not supported by the record, several that
said the Y-STR was specifically on the crotch and that the expert said
it was on the child's skin and transfered to the crotch. At one point
17

he even made the statement that it was NOT on the front panel, only
to show that it was on the crotch. He at one point gave a discription
of rubbing his black coat against his car and pointed out that it
leaves a mark, "Becouse of what?:'Transfer". He says the Y-STR was a
significant contributor from petitioner and says it was NOT casual
touch, he says*
"Now the child says her dad took her panties off. She was wearing
the panties when she went to childrens, so you continual contact
and transfer, And you want to talk about the vagina, and you
want to talk about digital. Number one, it's little, not a lot
of surface area, number one. Number two it's in an asea which
basically, almost seld-(inaudible), you urinate, you go to the
bathroom, you use the toilet paper, you're cleaning so the fact
that your not going to find anything "IN THERE" that's not
unusual, Vol.IV.p.36 (ID2251),

i

This false statement is the only connection from anybody that links
the vagina wllth anythdng being "IN THERE" and it came from the
prosecution's obviously successfull attempt to mislead the jury to
believe penetration had occured, he also speculates that the DNA was
washell away, and minimizes saying, "were only talking digital" whch
speculates why there is no medical evidence, "IN THERE'.'

The jury was never told where petitioner is alleged to had stuck his
finger, becouse the hearsay witnesses never specified where he '
allegedly stuck his finger. As> such the expert and the prosecutor
telling the jury that the Y-STR was located specifically on the crotch
and that it was transfereddfrom the childs skin and that it was

18

more than casual touch and likely a body fluid suclj as saliva, was
not only faulse but it provided the jury with circumstantial evidnce
that pin pointed the crotch as the location where the Y-STR
transfereH

, from the skin. Ahybolly would conclude that if it

transfered from the slkin to the crotch it had to have ?came from the
vagina. The jury was further unable to make it's own determination
becouse the state and his expert told them what they wanted them
to believe, regardless of the truth.
The new evidence presented by petitioner was an affidavit (letter)
from Dr.Theodore Kessis (DNA EXPERT) that contradicted the false and
misleading testimony and comments from the prosecution and'^his
witnesses. The expert presented by petitioner makes it more likely
than not that no reasonable jurist would have convicted him beyond
a reasonable doubt. Therefore hed petitioners counsel acted as
competant counsel-would have and investigated an expert and called
an expert the outcome would have been different. Dr.Kessis reviewed
the serology testing by the states B.C.I. lab, and determined that
(l) the SMALL amount of DNA and the lack of a biological source (such
as blood, sweat, saliva, etc) make it very difficult to tell much
information, and (2) it is likely that the Y-STR transferred whlfle
folding laundry, or routine cate.
Therefore had Kessis testified the jury would have been given tb£
truth about the evidence and they could have made their own
assessment of the Y-STR rather than what the State wanted them to
believe. Becouse there was no hearing in the State or the Federal
courts, Kessis was unable to be more specific about the evidence,
However the State B.C.I. agency was clearly in collusion with the
State, and the devestating effect of the false and misleading

19

testimony and comments there was no other way fof* the jury to even
consider the finger in the vagina. The comments were especially
damaging when the prosecution told the jury the only reason there was
no DNA found "IN THERE" is becouse she washed it away

and if Dr.Kessis

would have been there to tell the jury that it was not saliva, it was
not any fluids, and it was probable that the Y-STR transfered whllle
folding laundlly it is molte likely than not that no |j*easonable jurist
would have found petitioned guilty beyond a reasonable doubt. The jully
made their findings based oH .the false and misleading statements, and
hall they not been influenced by the prosecution and his witnesses in
a false and misleading manner, they could have made their own decision
regaling how much wieght to give to the DNA evidence, whede it was
old was not located, whet it does oft does not pHove, and they could
have based! their opinion on the evidence itself rather than how it
appeared based on the false and misleading presentation. The DNA itself
actually had very little probative value, howevel! it was extreamly
prejudicial especially after you consider the effects of the false and
misleading testimony and comments the Jury was subjected too.
The Jury was unable to decide any of the decisions their selves. The
Prosecution in collussion with BCI done that foil them and the result cost
fetherolf his life.
Thl's court should review the Acual innocence gateway claim becouse
the lower court needs some guidance on the manner of review to be
applied and what thWs court meant by "newvevidence". The Sixth circuit
has applied many different Hulings fdom actual-innocnt claims that al'e
not consistant with one another, Fod instance. In SOUTER V JONES,395

20

F.3d 577 , The State court, held that soutersievidence was not new
becouse he could have raised it prior to trial. The District court
agreed with the state court that it was not new and could have been
presented at trial and did not demonstrate a reasoanable likely chance,
of acquittal. The Sixth cicuit reversed that holding determining
the evidence was new and fully reviewed the claim.
In EVERSON V LAROSE,2020 U.S.App.Lexis.14290, The sixth circMt
determined that "newly presented" evidence was sufficient for an
actual innocence gateway claim, citing CLEVELAND V BRADSHAW,693 F.3d
626, relying on SOUTER V JONES,395 F.3d at 577 n.9. The everson court
held that the affidavit would qualify as new evidence under the
Schlup statndard, see Everson at *11.
However in this case the Sixth Circuit did nottconsider the evidence

__\

new, becouse it relied on the STATE COURT determination? and it did
not review the constitutional issue (ineffective counsel). The Sixth
circuit railing is devoid of any reasoning process, and it applied a
standard higher than that of an actual innocence gateway claim on a
first petition to that of a Death penalty sentencing error which was
applied in DRETKE, relying on SAWYER.
The only reasoning process the Sixth Circuit, or any of the lowers
courts seem to have applied is their own bias against the type of
case, and that does not make the petitioner guilty. With a fair review
process petitioner would have gotten relief in the State court,
however this Justice system seems to be perverted.'^here is no fair
process. It is the Sixth circuit who has the highest quality standards
for review, becouse they are the highest court besides this one, and
petitioner expected much more fair treatment than what he recieved
fjrom a court as hi'gh as the_Sixth Circuit.

21

The Second substantial error envolves the Sixth circuit finding no
prejudice for Apepal counsel ineffectiveness, becouse witness testimony
Made express statements, which they never actually made, and supported
his findings by the facts that petitioner was indicted* Jackson V
Virginia 443 U.S.307 (1979) does not require a finding that the
petitioner was charged with a crimed

In Ohio to prove the crime of Rape, the State is required to provve
Sexual Conduct, R.C.2907.02, Sexual Conduct is defined as Penetration
of the Vaginal OPennihg. RaC.2907.01(A).
The Ohio Supreme Count has held that to prove sexual conduct the
testimony must be more than an< ambiguous statment and they must
"reinforce the need to have the events described with sufficient
clerity" to establish guilt beyond a reasonable doubt. SEE Third dist
court of Appeals, STATE V MILLER,1995 Ohio App.Lexis 35 at *12-14
citing STATE V FERGUSON 5 Ohio St.3d at 168.450 N.E.2d at 271-272.fn6.
The Sixth circuit has held that a conviction cannot stand if it iii
based on speculation or guesswork, see NEWMAN V METRISH.543 F.3d 793
(6th cir 2008). In JACKSON V VIRGINIA 443 U.S. 307 (1979) quoted by
BROWN V PALMER 441 F.3d 347 351 (6th cir 2006) the court hald that
the Jackson standard must be applied "wlith explicit referance to the
substantive elements of the criminal offence as defined by State law'.'

In this case the sixth circuit determined that petitioner failed to
show prejudice from his counsels failure to raise the insufficient
evidence claim becouse "The record reflects that a.c.s mother and
grandmother both testified at trial that a.c. expressly told them
that fetherolf had digitally penetrated her vagina in September 2013,

22

citing Fetherolf 2017-0hHo-1316,2017 WL 1316207 at *2-3” SEE Fetherolf
V Warden, 2020 U.S. App.Lexis 29845 at *11.
(1) The sixth circuit failed to consider ANY of the other evidence,
including the deposition of a.c. where she indicated that she never
spake to her mother or her grandmother, (heather and linda) by
shaking her head in the negative when asked by the prosecution TwUce.
(see Deposition dated 5-18-2015) or the testimony from Laura Kato that
a.c. told her the touching was "Just the outside".
(2) The sixth circuit statement that a.c. mother and grandmother both
testified that a.c. expressly told them fetherolf digitally
penetrated her vagina in September 2013. IS FALSE.
LUnda (grandmother) testified that a.c. told her he took her shorts
and underwear off and stuck his finger up in me. and Heather (a.c.s
mother) testified that a.c. told her she was threatend to be spanked
if she did not let her father touch her in her butterfly. The
prosecutor asked what butterfly meant, and heather (NOT A.C.) said
vaginal area

Heather then testified that a.c* told her he stuck a

finger inside of her.
Niether of those testimonies say anything about the vagina, and they
haver said anything about September. They never said HOW this is
alleged to have happened. They did not say when this is alleged to
have happened, or where this is alleged to have happened, they made
a very ambllguous statement that he stuck a finger "in her", but never
said where that was.
(3)The sixth circuit determination that heather and linda testified
that a.c. expressly told them that fetherolf had digitally penetrated
her vagina in September was based entirely on the fact that petitioner
was indicted.That is obvious by the sixth circuit citation to
23

Fetherolf a¥LU316207 at *2-3. becouse if you referance fetherolf at
2-3 you will se that it is the Appeals summary discussing the indictment.

This court has rejected the "no evidence" standard under Thompson
V Louisville,362 U.S. 199, becouse it was insufficient to protect
against misapplication of reasoanble doubt, see Jackson at *320,
A "reasoanble doubt" at a minimum is one based on "reason" yet a
properly instructed jury may occassionally convait even when it can
be said that no rational trier of fact could find guil£ beyond a
reasonable doubt, and the same can be said of a trial judge sitting
as a jury. In federal trials, such an occurance has traditionally been
deemed to require reversal of the conviction.
In the instant case the court gave the proper instructions on the
definition of the elements of the crimes, including rape requiring
a finding of penetration of the vaginal openning. V.IV.p.74 (ID2289).
However the written instructions requiHed finding penetration of the
vaginal cavity.SEE. v.IV.p.88 (ID2303). At 12:04 PM on thursday March
10th 2016 the jury was excused to step back into the room, and asked
to return at 1:00 PM. f.IV.P.2304), and the court recessed for lunch
at 12:05PM V.IV.p.90-91 (ID2305). Petitioner was then escorted to a
holding cell, afind at 4:45 the court resumed;
"Okay it's 5o*clock. The court has recieved several questions
from the jurprs, all of which have been answered in consultation
with the attorneys. We have agreed on all the answers to the
questions and we'll make those part of the record" V.IV.p.91.
(ID2306).
The court explained that the Jury was "HUNG" on at least one of the
counts, read the howard charge and excused the jury, instructing them
24

to return on March 11 2016 at 9:00 AM. V.IV.p.91-95 (ID2306-2310).
Everybody agreed that the Judge could open the verdict forms to
see which counts the jury made findings on becouse there may be no
need fior a verdict on all three counts. V.IV.p.95.(ID2311).
The only .possible combination that could make a finding on all three
counts unecessary would be a finding of guilt on the Rape count which
would make a finding on the Gross sexual imposition unecessary.
The next day at 9:00 AM, friday March 11 2016 the Jury continued
deliberations, and at 10:42 AM the Bailiff read the verdict forms for
all three counts of guilty. V.IV.p.3.(ID2316).
At 8:33 that morning the Prosecution submitted a written record of
the jury questionair. SEE State Docket filed on 3-11-2016 titled;
Proposed Jury question response. Which gave the following definition
to the;

i.aestion which was the definition of "sexual conduct, and

"Vaginal Cavity";
"R.0.2907.01(A) defines sexual conduct as*** the insertion however
slight of any part of the body or any instrument, apperatus, or
other object into the vagina or anal Cavity of another.
Penetration however slight is sufficient to complete vaginal ot
anal intercource"(EMPHESIS ADDED)
"The Vggina is the hollow passage leading from the uterus of te
the female body outward to exterior genitalia or vulva, or which
comprise of lip like folds of skin called the labia majora"
"The term Vaginal cavity refers to the entire anatomical process
and any part of it. The laws of the satte of Ohio do not define
vaginal cavity different from that of common usage'.'
"The definition of sexhal conduct has been provided to you.
Sexual conduct means, in this case, the insertion however slight,

25

of any part of the body; i.e. finger/fingers is intercourse'.'
"The vulva is part of the vaginal cavity, therefore, if the finger
/fingers is introduced wllth sufficient force to cause the labia
majora to spread penetration has occured'.'
The definition (above) was given in State V FARR seneca county,App.
No.13-06-16, June 25 2007-0hio-3136.,That court relied on eighfct(8)
cases for it's definition, all prior to House Bill 95, dated from
1989 to 2004. The definition given was that they had to find
penetration of the "Vaginal cavity" However that is not the definition
of sexual conduct. The legislators amended that in HB95, and the 10th
district court of Appeals (finally) defined the legislative intent
as follows,in STATE V DH,2018-0hio-559;
"In August 3 2006 the Ohio general assembly passed HoiufceJBill 95,
replacing the word "cavity" in R.C.2907.01(A) with the word
"Opening", prior to HB 95 the Ohio courts presented with the
question construed vaginal intercourse and penetration of the
vaginal cavity to mean penetration of the vestibule - the space
exterior to the introitus. SEE TABERS CYCLOPEDIA MEDICAL DICTIONARY
1135,2318 (20th ED.2005), Defining "Hntroius" as "[a]n opening or
interance into &iieam&l or cavity, as the vagina, and "vestibule"
as "[a] small space or cavity at the begining of a canal, such as
the aortic vestibule'.' Pursuant to HB 95 Amendment to R.C.2907.01 (A)
"Vaginal penetration *** is penetration of the Opening - the
introitus - and not merely penetration of the vestibule'.'
"The vagina is "[a] musculomembran tube that forms the passagway
between the cetvex uteri and the vulva" TABERS CYCLOPEDIA
MEDICAL DICTIONARY 2288 (20th ED 2005). The vulva is

26

"[T]hat portion of the female external genetalia lying posterior
to the mons veneris, consisting of thp labia majora, clitoris,
vestibule of the vagina, and vaginal opening" TABERS at 2338.
The labia Majora are;the "Two folds of skin and adipose tissue on
either side of the labl'a minora and vaginal opening; They form the
lateral borders of the vulva" Tabers at 1186. The labHa minora the
"Two thin folds of integument that lie between the lablla majora,
they enclose the vestibule,*** Hn young girls, they ate hMdden
entirely by the labfila majora" TABERS at 1186.
SEE SATET V DH 2018-OHio-559 at *39.
The court in D.H. determined pursuant to HB 95 the victims testimony
that D.H. "rubbed his penis up and down" against her vagina and
that she confirmed that DH rubbed htis penis up and down "between the
lips of her vagina" SEE DH at *55, was insufficient to prove
penetration of the vaginal opening. Although the evidence demonstrated
appellant inserted hHs penis into S.M.'s lablla, the evidence failed
to demonstrate that he inserted it into her vaginal opening. DH at *56.
ALSO see State V Blankenshfilp,2001 OhUo App.Lexis.5520 at *7-8,
providing Doctor testiomony defining the female genitalia, and
stating that the "OPENING" Hs interior past the hymen, also see
STATE V CARPENTER.60 OhHo APp.3d 104 573 N.E.2d 1206,1989 Ohio
App.Lexis 3781, at *105. and State V SH00P .87 Ohio App.3d 462,
622 N.E.2d 665 1993 OhHo App.Lexis 1137, at *467-8.
The Later cases were all prior to House Bill 95 and were governed
by the sexual conduct definition of vaginal cavity, however the
testimony given in them is still relevant for defining the vaginal
opening, and where it is located wHthen the female body. State V DH
is gfiee HB 95 and is the first that petitioner can find that
27

actualLy took the time to interperate the Amendment in House Bill 95,
and the legislative intent when changing the definition from "Vaginal
cavity" to "vaginal Opening". In this case petitioner never saw the
written instructions refered to Mfc V.IV.P.88 (ID2303) becouse he was
in a holding ceil, However based on the question from the Jury being
relevant to "vaginal Cavity", it is clear that those instructions were
reliant on "cavity" and Not "opening", and it is undoubtably clear
that the answer was that of "cavity". It is important to point out that
it only took the Jury an hour and a hald to convict petitioner after
they were given the invalid answer that substantially lowered the
governments burdon of proof, and left the element of "sexual conduct"
undecided, which happens to be the only element they had to find for
the charge of rape under R.C.2907.02 in this case.
Furthermore, the prosecution pursued thlls theory throttgh the entire
trial. The Bill of Particulars only stated that petitioner placed his
hands into a.c.s pants and underwear "so he could" touch her vaginal
area, and then seperated the labia penetrating her vagina. However
as we have just discussed seperating the labia does not amount to
penetration. During the trial the prosecution questioned Dr.Thackery
who testified that the labia were part of the Vaginal AREA, not the
vagina itself, however the prosecution mislead the witness to make
it sound as though Thackery meant the "external" lips were the vagina
V.IV.P.12.(ID2227). He also mistated the element of sexual conduct

Ji

saying "insertion of anything into the vaginal area" V.IV.p.12 (ID2227)
and "he put his finger in her which is the rape" V.IV.p.40 (ID2255).
The sixth circuit improperly applied Jackson V Virgina when it
relied entirely on the State Appellate courts summary of the facts,
holding that Heather and Linda testified a.c. expressly told them

28

Fetherolf digitally penetrated her vagina in September 2013, and
based that rulling on what the State Court alleged was stated in the
Bill of Particulars, and in the Indictment, rather than what the
actual testimony at the trial stated, or what whs in the record.
Furthermore, the only evidence regarding petitioner's whereabouts,
on or about September 231of 2013 is testimony from a.c.'s mother
^heather) that places him at an apartment on Stratford road, which is
in DELAWARE COtMTY. She testified that she dropped a.c. off there on
Friday;

September 20th, that she took extra clothes there on Saterday

September 21st, and that she called the DELAWARE COUNTY police and
sent them there to where petitioner had satyed the weekend at, and
where she had taken a.c. and the clothes. Although venue is not an
element of the offence, by STATE LAW the State courts are required to
prove it beyond a reasonable doubt. STATE V HEADLEY.6 Ohio St.3d 475.
Petitioners argument also stated there was no evidence WHERE, HOW,OR
WHEN, these allegations are alleged to have taken piece

and there is

not one statement from either of the witnesses that this allegedly
took place "On or about Septemberr22 2013',' and based on the fact that
petitioner was aqcuitted of COUNT # 3 and 4, which alleged "ON OR ABOUT
JULY 22 TO SEPTEMBER 21 2013"it cannot be said to have occured prior
to the 22nd. The only evidence presented by the State court to prove
petitioner was at the alleged crime scene was the argument that
petitioner lived at the residence and had visits every other weekend,
and like everything else presented by the state that is not true,
(petitioner is in the process of obtaining the mid-Ohio records
where a.c. and heather told her counselor that petitioner was not
sepnding time with a.c. in 2010, 2011, 2012. that was the bases of
her diagnosis.).
29

Petitioner was convicted of counts 1 and 2, There is nothMng in the
record even trying to prove these allegations occured on Sunday or
monday rather than friday or saterday, in fact the prosecutor made
the agrumant in his close; "I want to start with the charge of rape'*
"It's on or about September 22 2013" "Let's talk about that, on or
about" "September 20th of 2013, She satrted her visitation" He then
points out the extra clothes taken on Saterday. SEE V.IV,p.7-8,
(ID2222 ). There was no evidence placing petitioner at the alleged
crime scene On or about September 22 2013. Petitioner was ultimatly
convicted of alleged conduct that he was already acquitted of on
directed verdict, based entirely on two statements that merely
said "he stuck his finger in her" with no indication what that means,
and with complete disregard to the factjthat a.c. herself testified
(see deposition 5-18-2015). and indicated she never spoke to the only
two peoplfcifesrelied on by the state for the rape charges, and with no
consideration of the fact that a.c. actually told Laura Kato that the
touching was "JUST THE OUTSIDE’.'
The Sicxth circuit said heather and Linda, (the two she indicated she
did not speak too) testified a.c. expressly told them he stuck his
finger in her vagina on September 2013. citing State v Fetherolf
2017-0hio-1316, WL1316207, at *2-3. However "SEPTEMBER of 2013" is
insufficient to uphold this conviction, becouse petitioner was
acquitted of any wrong doing all the way up to September 21 2013, and
there was nothing in the record to Pndicate the allegations were
on the 22, or the 23rd, and contrary to what the Sixth circuit would
have you believe this conviction cannot be upheld simply because
petitioner was indicted tin the State court.

30

ThLe insufficient evidence claim is raised under the ineffective
assistance of appellate counsel. The Sixth circuit and the district
court determined there was CAUSE but not prejudice, (see HABEAS GROUNDS
4 and 8 ). The Habeas courts also ignored several of the arguments
raised in the state court. (1) Appellate counsel lied in the briefs
by saying Teresa Warnimont testified a.c. reported "digital
penetration" (ID920), when she had only said digital CONTACT, V.III.
p.13, (ID1998). (2) She filed an assignment of error based on Pam
Hawkins testifying that her and petitioner were sexually active,
see assignment of error # TWO direct appeal) when however hawkins never
said that, it was the prosecutor who made that comment. (3) She failed
to argue hawkins testimony as a whole, and pieced it out into one
part. Petitioner raised the argument that aaw»sal was ineffective for
not arguing hawkins testimony "IN TOTAL". The federal courts should
have considered that for cause, and they ignored it. (relevant to
ground TWO)(se&)26 (B) State court, ID1217). (4) Petitioner raised
the argument in his 26 (B) that counsel was ineffective for not
raising the "Prejudicial comments" made by the State and foH not
arguing the "acts, condmct and ommissionsV (ID1215-1216). This should
have been considered as cause and prejudice for the misconduct
arguments that the Habeas courts said were defaulted. They were all
ignored.
r
The THird error envolves the cummulative effect of the Sixth circuits
r '■

-

failure to properly review the issues, including, ignoring petitioners
arguments, attributing it's own rollings as that of the district
court, improperly applying federal law,and raising the bar petitioner
is required to meat without notice.

31

AjPetitoner extensively argued the Appeal courts unreasonable
application of the facts in light of the state court proceedings,
required by 28 U.S.C.§2254(e)(l). becouse they relied on facts not in
the record, by chrry picking through the evidence presented at trial
and piecing it together in a manner that it was not presented to make
it appear as though it says something that was never said, which
is basically tampering wllth the records,They relied on the _
prosecutors arguments rather than the record,1 and they madestatemnts
that were simply False. "A state court decision that rests upon
a determination of facts, that lies against the clear wHeght of the
evidence is, by definition, a dscision 'so inadequately supported by
the record as to be arbitrary and therefore objectionably unreasonable
SEE Ben-Yisrayl v Buss 540 F.3d 542,(CA72008) cited by WOOD v Allen
558 U.S. 290 (2010). Deferance does not imply abandonment, see MHller
el V Cockerall

537 US 322,123(2003). Petitioner should not have to

argue AGAINST the reviewllng court, he should simply be presenting a
constitutional claim, however the review Hn this case is unfair.
B; Habeas Grounds, raised on direct appeal were in terms of a violation
of constitutional rights (ID906-907) however the state Appellate court
eleminated any referance to the constitution (ID1059). also State V
Fetherolf 2017-0h io-1316 at *^27.
(1) Habeas Ground One, part 1 and 2; The SHxth circuit stated in it's
rulling that "On direct appeal the State appellate court concluded
the admission of evidence in question did not violate Ohio rules of
evidence"SEE Fetherolf V Wardpn 2020 U.S.App.Lexis 29845. The sixth
circuit then says there is no federal law on State propensity
evidence relying on Estelle V McGUire,502 U.S. 62 (1991), However
they sesm to, overlook the fact that the court in McGuir proceeded to

32

determine whether the admission of the evidence in the State court
violated his constitutional right after it rejected the State law part
of his argument, see McGuire at *68. In addition, becouse the State
court only reviewed for State law, and the Siaith circuit saw fit, the
review should have been de novo. SEE Danner V Motley,448 F.3d 372
(6th cir 2006) and Wiggins V Smith.539 US 510 (2003). THIS ARGUMENT
WAS MADE AND IGNORED.
(2) Habeas Ground Two, witholding evidence (BRADY) (Crimnal records
of Hawkins, (subject of Ground one)). The State court held that the
witholding was not intentional, and becouse the prosecutor impeached
her with other minor raidameanors her crdibility was already in question
and thlfs one other charge would not have mattered. SEE State V
Fetherolf 2017-Ohf'o 1316 at *P65-66. The dNtfcict court and the sixth
circuit applmeddthe State courts reasoning. SEE Fetherolf V Warden 2020
U.S.App.Lexis 29845 at *8. COA should have issued. The determination that
the Presection did not mean to withold the evidence is contrary to
BRADY v MARYLAND.373 US 83 (1963), and any review regarding hawkins
being in Jail or other minor midameanors. or drinking "WHILE WITH
PETITIONER" are merit rulling in conflict with BUCK V DAVIS,137 S.Ct.
759 (2017).
3; Habeas Ground SIX; Expert veracity testimony. The State court
applied the plain error procedural default review to this issue,
However they applied it to the wrong issue, and ignored the other one.
Counsel on direct appeal argued that Dr.McManus testimony that her
diagnosis was based soley on what she was told by a.c. and heather
and Teresa Warnimonts testimony, when asked about child disclosure
saying, "What they say happened is what happened" went to the veracity
of the testimony of heather and a.c.}(SEE BRIEFS ID 930-931).

33

The State Appellate Court ignored the constitutional issue raised,
regarding the diagnosis of Dr.McManus being based solely on what she
was told rather than what she observed, and it considered Warnimonts
statement that :"What they say happened is what happenedMas an isolated
statement.aiding that she may have been saying she "handled" the
allegations for purposes of examination as though what the child said
happened is what happened. SEE STATE V FETHER0LF,2017-0hio-1316 at
*P35. That is an unreasonable application of the facts in light of
the evidence in the State court.
SECOND, Appellate counsel raised "additionally" Kaitlyn Ruddy, Det.
Flanagan, and Teresa Warnimonts testimony that a.c.'s statements are
consistant is just another way of saying she is credible, Noting the
prosecutions reliance in his close, at Vol.IV.Tr.22-24. (SEE ID 930931). In other words the witnesses (expert) told the jury the Statments
made by a.c. and Heather, were consistant, therefore credible, which
^Interfered with the Finder of facts ability toimake such determinations.

The state Appeal courts did not rule on that issue. They determined;
"Whether a statement being consistant makes it more or less credible,
is a factual determination to be made by the finder-of-fact. see
Fetherolf, 2017-0hio-1316, at *P33. That ruling ignores the fact that
the jury has to first decide if the statements are consistant, before
they can decide the credibility of such a statement.
As such the Plain error review, was not applied to the constitutional
issue rasied, Therefore the issue was not reviewed, and the-Federal
court should have reviewed De Novo. SEE WIGGINS V SMITH.539 U.S. 510
(2003).

34

The district court seems to believe that many of the Misconduct claims
are unexhausted, and they only mantion the misconduct as it relates
to the veracity issue, holding that it was not reviewable. SEE Feterolf
v WARDEN 2020 U.S. District Lexis 70787, at *24. The Sixth circuit
only aeknowleged the veracity issue, the Brady violation, and petitioners
criminal record? and completely ignored hawkins testimony.

. .

The federal district court, aswell as the Sixth circuit failed to put
the misconduct in context as required by DARDEN V WAINSRIGHT.477 U.S.
168 (1986).
The Sixth Circuit determined that jurists of reason would not disagree
with the district courts concludion that the State court did not
unreasonably apply Federal law.*SEE Fetherolf at 8-9.
Darden V Wainwright, 477 US 168 (1986). However the State court did
not rely on Darden, it cited Darden however relied on STATE V BRAXTON
102 OHIO App.3d 28 (8th dist 1995) for it's standard of review
SEE STATE V FETHEROLF 2017-0hMo-1316, at *P68.
More importantly the district court did not make that determination,
The Sixth circuit decided for itself that the State court did not
unreasonably apply federal law and it made the decision,,
then applieM it to the district court as if they were the one to h.
have n-.zaade the decision.
28 U.S.c. 2253 (C) requires the Sixth circuit to consider whether the
district court was correct in it's rolling, and whether there is a
substantial constitutional issue. NOT to make it's own ruling and
attribute it to the district court as if they made the decision.
Furthermore they failed to consider petitioners arguments for caus
and prejudice, and failed to put the misconduct into context

35

of the trial as required by DARDEN. Thsi court

should consider this

issue separately and cummulatively, ThHs issue is important becouse
the amount of misconduct in this case is ASTRONOMICAL, not only did
the bill of particulars rely on allegations that were never made,
saying that he put his hands into her pants, but he admitted
irrelevant testimony, and petitioners criminal record when he did not
testify, and in his close he recited the entire trial in a false and
misleading manner, mistating or lying atleast thllrty four (34)
times, (see case and facts) .Petitioner diligently studied to write h|ls
arguments against the lower courts defaults, and rullings, FOR WHAT?
SO THEY COULD IGNORE IT? Petitioner has not recieved any fair review,
and many of the claims have been overlooked. The sixth circuit needs
this courts direction on reviewing for a COA, and when it necessary
to apply its own opMnion and when its necessary to review that of the
district court.furthermore, the need for honesty and transparency,
and not attributing its own decision to the lower court and rulling
on it. Almost every possible manner of misconduct occered in this case
and petitioner has made the required showlings and been ignored by
every court to review it. The Sixth circuit erred in denying its own
rulling unreasonably applying Darden V WAinwright.477.US 168 (1986).
5) The State court failed to apply the harmless beyond a reasonable
doubt standard required by CHAPMAN V CALIFORNIA.386 U.S. 18 (1967).
The district court disagreed see Fetherolf V Warden 2020 US Dist
Lexis 70787 at *22, and the Sixth circuit ignored the argument.
The Fedral Courtcfailed to apply BRETCH V ABRAHAMSON,507 US 619 (1993).
And the SHxth circuit relied on the state courts merits rulling teljat
a.c.'s statements were corroberated by DNA evidence, and even if she
did not testify specifically about the allegations the Jury was able
36

to innfer petitioner's guilt based on her dameanor. It is unreasonable
for the appellate court, and the Sixth circuit to consider thMs in
it's consideration for C.O.A. becouse it is a merits based decision
and in conflict with MILLER-EL V COCKRELL,537 U.S. 322 (2003) and
BUCK V DAVIS,137 S.Ct. 759 (2017). The sixth circuit must first have
a C.O.A. before it cab make those determinations.

C) New trial Motions. (2016 and 2019).
After trial Petitioner filed a motion for new trial (march 30 2016)
alleging fourteen grounds for relief, The trial court oVeruled all
but # Three (brady) that was appealed after being denied and affirmed
on direct appeal. In State V Fetherolf 20l7-0hio-1316.
In 2019 after obtaining New evidence petitioner filed a motion for
leave and a new trial motion. (March 1 2019, June 10 2019) The motions
were denied on June 19 2019 and appealed in Case Number 14-19-23.
(unreportett, see appendix E.)
(i) The 2019 state court ruling was too ambiguous to have clearly and
expressly stated that it rested on a default, and almost identical to
the rejection in CLINKSCALE V CARTER.375 F.3d 430 (6th cir 2000)
citing HARRIS V REED 489 U.S. at 263, Where the sixth circuit rejected
the res judicata as too ambiguous.
(ii) The State court rulling (2019) held that becouse fetherolf brught
or could have brought his argument in his direct appeal or other post
conviction motions, Fetherolf is barred by res judicata from claiming
he was unavoidably prevented from discovering the information contained
in the affidavit, Therefore Fetherolf failed to submit documents that
facially support his claim that he was unavoidably prevented from
timely discovering the evidence, (see Appendix E ).

37

ThfJs ruLing is ffciftwdd for several reasons,* When making a showing that
you are unavoidably prevented, from discovering evidence, petitioner
over comes res judicata. A rulling such as the one above would

i.-ir

circumvent the required showllng that you were unavoidably prevented,
res judicat cannot be a bar from making a showing that you were
unavoidably prevented, Nor can it simultaneously be the reason
for not making such a showing. This ruling is confusing and essentially
bars petitioner from presenting his new evidence , without consideation
of whether or not he was prevented from it's discovery* SEE STATE
V DAVIS. 131 OhMo St.3d 1.
3) The State court dilj not differentiate between on the record issues,
and off the record issues of Ineffective counsel, when it barred them
all as res judicat becouse they could have been brought on direct.
(see appendix E page 8).

The Federal court has consistantly

rejected

res judicata rulings that are improperly applied by the State. SEE
HILL V MITCHELL.400 F.3d 344 (6th cir 2005); RICHEY V BRADSHAW,498
F.3d 344 (6th cir 2007); PEOPLES V LAFTLER,724 F.3d 503 (6th cir
2013); SMITH V COOK,956 F.3d 377 (6th cir 2020).
In Addition, the State court had already said petitioner DID raise
these issues, (see Appendix E, Page 2) stating;
"Fetherolf, filed a motion for new trial, arguing in relevant part,
that his counsel was ineffective for failing to object to the
admissibility of DNA evidence, and that they affirmed on direct.
However there is no indication that they actually affirmed any such
argument on direct appeal. Therefore they should have looked through
the 2019 new trial motion, to the 2016 new trial motion they say was
affirmed on direct. SEE McNEILL V BAGLEY 2019 U.S. Dist. Lexis.144592,
at 47-48 citing, Ylst V NUNNAMAKER.501.U.S.797 (1991).
38

As such res judicata was debatable becouse it relied on outsifcje the
record evidence. SEE HAYNIE V BUCHANAN,2019 U.S. App.Lexis 33536.
This court should review this error cummulatively and seperately,
becouse the rulling relied on tpbar petitioner is a complete denial
of any opportunity to present his new evidence and the Federal courts
should have been able to make such a determination if it acually
considered the ruling, rather than rejecting the argument made by the
petitioner and construing it's opinion around a pre determined opinion.
ADDITIONAL REASONS FOR REVIEW:
This court should review these errors becouse the Sixth circuit did
not apply any reasoning process to petitioners application for COA.
they cited some of the applicable law, but never actually applied it.
For example; they cited JACKSON V VIRGINIA.443 U.S. 307 (1979). However
based their decision on the existence of an indictment rather than the
trial records. They cited DARDEN V WAINWRIGHT.477 U.S. 168 (1986), but
never put the misconduct into context, and when reviewing the actual
innocence claim they relied on a review from a death penalty sentence
error which relied on SAWYER V WHITLEY,505 U.S. 333 (1992), which was
expressly rejected by SCHLUP V DEL0.513 U.S. 298 (1995).
Furthermore, the review by the Sixth circuit lacked any integrity,
becouse they made atleast two decisions that were dishonest. FIRST,
the staterment that heather and linda testified a.c. expressly told
them petitioner stuck his finger in her vagina in September 2013,is
false. Niether of them said anythHng about her vagina, or September
of 2013, and that statement is not supported by the record, and it
is unclear where the sixth circuit obtained that information, SEC0SND
they denied GOA regarding prosecutor misconduct, becouse of a decision
which they made and attributed to the district court when the district

39

court never made such a ruling. It is important'to all U.S. Citizens
that thlls court collect these errofts, becouse by allowing these issues
to go unco^rected this court is essentially condoning the
incarsecration of innocent Americans* If any American is convicted
in the same manner as petitioner, with the same insufficient appellate
review process, without this court stepping in, the American people
are sitting ducks, waiting for their own government to victimize them.
Then itorture them through an imaginary Appeal. Petitioner is not being
denied becouse he is wrong, but becouse he is right, and what is
happening to petitioned is nothing less than human trafficing
in the guise of justice. It is unconstitutional to excuse the
governments conduct at the cost of American lives, especially when
that conduct is what resulted in petitioners incarsedation and the
continuation of said incarceration. Please accept thds and review
petitioners issues.
RESPECTFULLY REQUESTED

/- $-2*72/

Michd^T Fetheltolf
Pro se,Petitioned
C.C.I. # 724453
Chillicothe Ohlo.45601

CERTIFICATE OF SERVICE
I. Michael Fetherolf hereby certify that a true copy of this certiorari
has been sent to counsel of records, William Lamb, at 441 Vine Street,
1600 Carew Tower, Cincinnati OhHo 45202, by regulal! U.S. Mail
on this jfT^day of
2020.
/

40

